. .




      Department of Health and Human Services

              OFFICE OF

         INSPECTOR GENERAL





      OMBUDSMAN OUTPUT MEASURES

         MANAGEMENT ADVISORY REPORT





                      f,RVICES'




                                  Richard P. Kusserow
                                  INSPECTOR GENERAL
            '0


                 lt
                                     JUNE 1991
                      "d:m
                             OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector Genera (OIG), as madated by Public Law 95- 452 , as
amended, is to protect the integrty of the Deparent of Health and Human Services ' (HS)
progrs as well as the health and welfare of beneficiares served by those progrs. This
statutory mission is cared out through a nationwide network of audits , investigations, and
inspections conducted by thr OIG operating components: the Offce of Audit Services , the
Office of Investigations, and the Office of Evaluation and Inspections.. The OIG also informs the
Secretar of HHS of progr and management problems, and reommends courses to correct
them.

                               OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit Services (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examne the performance of HHS programs and/or its grantees and contractors in
caring out their respective responsibilities , and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse and
mismanagement and to promote economy and effciency throughout the Deparment.

                              OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts crimial , civil , and admistrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrchment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions ,or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                  OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s   Offce of Evaluation and Inspections (OEI)       conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Deparment , the
Congress, and the public. The fmdings and recommendations contained in the inspections
reports generate rapid, accurate , and up-to- date information on the effciency, vulnerability, and
effectiveness of deparmental programs.

This report was prepard in the New York Regional Office under the direction of Regional
Inspector General Thomas F. Tully. Project staf included:

Renee Schlesinger Project Leader              Alan S. Levine, 
   Headquarters
Demetr Arapakos
N aney   Harson
Alan S. Meyer
Deparment of Health and Human Services

       . OFFCE
   INSPECTOR GENERA





OMBUDSMAN OUTPUT MEASURES

  MAAGE!vNT ADVISORY REPORT





                    uw'C'r$'
                               CfJ'




                                      Richard P. Kusserow
                                      INSPECTOR GENERAL
      '0


           lt                            OEI-02- 90-02121
                ;(It''ofia
                   EXECUTIVE SUMMARY


PURPOSE

The purose is to identify methods for measurig the success of ombudsman programs.


BACKGROUND

We recently conducted an inspection of State Long Term Car Ombudsman Programs. See our
report OEI- 02- 90- 02120 entitled " Successful Ombudsman Progrs. " In that inspection , we
interviewed all State ombudsmen to determine the characteristics of successful programs and to
help identify highly successful programs.

In analyzing this information , we created a multi- dimensional index which served as a
conceptual basis for ratig the activities of all ombudsman programs. We believe that this index
can serve as an example of an output measurement system for periodcally monitoring and
appraising the effectiveness of ombudsmen progrs.

The criteria used to evaluate these programs fall into two dimensions: visibility and complaint
resolution. A third dimension--peer recommendations--was also incorporated into the index. .
Four levels of success were then identified by reviewing the frequency distrbution of each of
these criteria.


RECOMMENDATION

The index is meant to demonstrte that, despite certai limtations, such a measurement system is
possible. The development of a measurement or rating system, using either our methodology or
an alternative, would provide a comparative basis for analyzing State programs, measuring
progress, and targeting technical assistance. We recommend that you implement such a system.
                                  .... .... ........ ............ ..................................................
                                        .-...............................................                                       :..................
                                                                                                                     . . . ........................
                                                                                            ....................................................
                                                                                           ................................................    ....




                              TABLE OF CONTENTS

INTRODUCTION..................................................................................................... .


         Purose.... .... 


         Background.............. .........................................................................


OMBUDSMAN OUTPUT MEASURES.............. 





           Criteria .................................................................................................... .............


           Scoring........ .........................................................................................................


         Results.......................... ........................................................................................ 3

         Limtations...... .

         Recommendation.......... .......................................................................................


APPENDIX                A ...... .................. .................... .......................................................... .. A­

APPENDIX                 B .................... ............................ ................................................ ........ .

APPENDIX                 C ......................................................................................................... C­
                             INTRODUCTION

PURPOSE

The purose is to identiy methods for measurg the success of ombudsman programs.


BACKGROUND

We recently conducted an inspection of State Long Term Car Ombudsman Programs. See our
draft report OEI- 02-90- 02120 entitled " Successful Ombudsman Programs " issued in April 1991.
In that inspection, ombudsmen from all States, the Distrct of Columbia (DC) and Puerto Rico
(PR) were interviewed by telephone to discuss what makes an ombudsman program successful.
They were asked to (1) suggest criteria and standards for judging ombudsman program activities;
(2) report their experiences in these activities; and (3) identify States they feel have successful
progrs. The purose of these interviews was to determne the characteristics of successful
progrs and to help identify highly successful programs which we would look at in greater
depth.

In analyzing this information , we created a multi- diensional index which served as a
conceptual basis for ratig the activities of all ombudsman programs. We believe that this index
might serve as an example of an output measurment system that could be used to periodically
monitor and apprase the effectiveness of ombudsmen progrs. We are providing this as one
methodological tool in support of the inspection s recommendation that the Admnistration on
Aging (AoA) should work with States to develop model operational guidelines in areas such as
frquency of visits; staf-to- bed ratios; vo1unteer-to- bed ratio; complaint response time;
complait resolution percentages; recruitment, trning and retention of staff and volunteers; and
progr publicity.
     OMBUDSMAN OUTPUT MEASURES

CRITERIA

Telephone interviews revealed performance criteria which ombudsmen f el should be used to
evaluate their program. These criteria fal into two dimensions: visibiliiy and complaint
resolution. The 51 responding State ombudsman progrs were rated on their reported activities
in these aras. A third diension of success, peer recommendations, was also incorporated into
the index. We asked each State to identiy other States that they feel have successful programs;
the recommendations each State program received from fellow ombudsmen were scored. Table
1 lists the crteria which fal undereach dimension.


                                            TABLE 1
                              Criteria for Measuring Success
                                 of Ombudsman Programs

          VISIBILITY
          Frequency of visits to facilities annually
          Ratio of professional staff to facility beds
          Ratio of volunteers to facilty beds

    II.   COMPLAINT RESOLUTION
           Response time for life-threatening complaints
           Response time for other complaints.
           percentage of complaints resolved per year

    II. PEER RECOMMENDATIONS
          Number of times fellow ombudsmen recommended State as having a
          model program


SCORING

Four levels of success were identified by reviewing the frequency distrbution of each of these
criteria. Every State s perfonnance was scored from high (4 points for the best reported
experiences) to low (1 point). For instance, a State progrm that makes regular weekly visits to
long tenn car facilties eared four points in that activity; a State that only visits facilities to
follow up on complaints but never makes routine visits eared one point. The scoring system for
each criterion is outlined in Table 2 as follows:
                                              TABLE 2
                                         Scoring System
        VISIBILITY:

       Points Frequency                        Ratio of                       Ratio of
                  regular visits               staff to beds                  volunteers to beds
                  weekly                           1499 beds
                                               1 :1-                           1 :1-169 beds
                  monthly                      1 :1500- 2999                   1 :170- 999
                   4 times/yr                  1 :3000- 4499                  1 :1000 plus
                  only follow-up               1 :4500 plus                   no volunteers



       COMPLAINT RESOLUTION:

                                                                              Percent of
       Points                    Response time to:                            complaints
                  lie-threatening non lie-threatening                         resolved per year

                  24 hours                     24 hours                       over 90%
                  24- 48 hours                   3 days                       75- 89%
                    5 days                       5 days                       65- 74%
                  1 week                       over 5 days                    less than 65%


       PEER RECOMMENDATIONS:

       Points                  Number of votes as model program

                                               1 4 -   20 votes
                                                7 - 1 3 votes
                                                2 - 6 votes
                                                1 vote




RESULTS

The points eared for visibilty, complaint resolution , and for being a model were totalled to
obtain a final score for each State. As shown in Table 3 the final scores   range from a low of 11
points to a high of 27 (out of a possible 28 points).
                                               TABLE 3
                                      Results of Scores

                                                                COMPLAINT                   PEER
                                                                                           RECOM­
                                  VISIBiliTY                   RESOLUTION                  MENDA-
                                                           Response Time .                  TlONS
           STATE       requency                                                              Peer
                                    Ratio of    Ratio of     Ufe-    Non Ufe­     %of      votes for   Total
                        regular
                                    staff to   voluntee    Threat-    threat­   cotTplalnt
                                     bes        to bes      enlng      ening    resolved    model      score
                         visits                                                             states
Alabama
Alaska
Arizona
Arkansas
California
Colorado
Connecticut
Delaware
District of Columbia
Florida
GeorQia
Hawaii
Idaho
Iowa
Ilinois
Indiana
Kansas
Kentuckv
Louisiana
Maine
Marvland
Massachusetts
Michiaan
Minnesota
Mississippi
Missouri
Montana
Nebraska
Nevada
New Hampshire
New Jersev
New Mexico
New York
North Carolina
                                              TABLE 3 (cant.)
                                                                     COMPLAINT                    PEER
                                                                                                 RECOM­
                                       VISIBILITY                   RESOLUTION                   MENDA-
                                                                Response Time                     TIONS

            STATE           requency                                                               Peer
                                         Ratio of   Ratio of     Ufe-     Non Ufe­     %of       votes for   Total
                                         staff to   volunteer   Threat.    threat.   complaint    model      score
                             regular      beds      to bes      enlng       enlng     resolved
                              visits                                                              states
 North Dakota
 Ohio
 Oklahoma
 Oreaon
 Pennsvlvania
 Rhode Island
 South Carolina
 South Dakota
 Tennessee                                                                                           1.
 Texas
 Utah
 Vermont
 Virainia
 Washinaton
 West Virainia
 Wisconsin
 Wvomina

Based on these scores we were able to group the State programs into three levels of success:
most, moderate and least.


LIMITATIONS

Limtations exist in this index in that the information is basically self-reported. Also, many
somewhat intangible factors, which contrbute to the success of an ombudsman program, are not
captured. These include: program independence, the ability of a program to influence legislation
or change policy, the relationship of the ombudsman program with other State agencies and
providers and the impact of the personality and leadership style of the State ombudsman. To
some degre, however, the recommendations of model programs incorporate these intangibles.


RECOMMENDATION

The above index is meant to demonstrate that, despite certain limitations, such a measurement
system is possible. The development of a measurment or          rag
                                                               system, using either our methodology
or an alterative, would prvide a compartive basis for analyzing State progrs, measuring progress
and targeting technical assistance. We recommend that AoA implement such a system.
                             APPENDIX A

                                         TABLE 4

                        Output Measures for Ombudsman Programs:

                            Visibilty Criteria. Reported Activity


                STATE                Frequency of regular   Ratio of staff   Ratio of volunteers to
                                            visits             to beds               beds
Alabama                                 3 x per year          1 cer 385
Alaska                                     yearly            1 per 1123            1 per 79
Arizona                                    weekly            1 per3018            1 per 246
Arkansas                                4 x cer year         1 cer 1267          1 cer 1900
California                                 weekly            1 cer 2000           1 cer 800
Colorado                                  monthly            1 per 2558          1 per 1023
Connecticut                          2 - 3 x cer month       1 cer 4020           1 cer 670
Delaware                                   weekly            1 cer 1980           1 cer 135
District of Columbia                    2 x cer year          1 cer 872           1 cer 74
Florida                                    yearlv           1 cer 9474           1 cer 632
GeorQia                                 4 x cer year         1 cer 1259           1 cer 871
Hawaii                                  no reQ. visit        1 per 3262
Idaho                                   4 x cer year          1 cer 849
Iowa                                    no rea. visit       1 cer 43000            1 cer 18
Illnois                                    vearlv           1 cer 3640            1 cer 557
Indiana                                    vearlv           1 cer4127
Kansas                                  2 x cer year        1 cer 9694
Kentuckv                                  month Iv 
        1 cer 1748            1 cer 157
Louisiana                                  weeklv           1 cer 1892             1 cer 80
Maine                                   no reQ. visit       1 per 4290            1 per 757
Marvland                                  monthly           1 cer 2094            1 cer 481
Massachusetts                              weekly            1 cer 590            1 cer 235
Michiaan                                   weeklv           1 cer 4255           1 cer 1337
Minnesota                             2 - 5 x cer year      1 cer 3329            1 cer 370
Mississippi                             4 x per year        1 per 1248            1 per 999
Missouri                                   weekly           1 cer 5329            1 cer 213
Montana                                   monthly           1 cer 3250            1 cer 144
Nebraska                                   yearly           1 cer 1   0558       1 cer 1920
Nevada                                  4 x cer year        1 cer 1591
New Hamcshire                            monthlY            1 cer 3113           1 per 1556
New Jersev                              no rea. visit       1 cer 7143
New Mexico                                 weeklv           1 cer 1272            1 cer 191
New York                                   weekly           1 per 2660            1 cer 346
North Carolina                          4 x cer year        1 cer 4427            1 cer 48
North Dakota                            2 x cer year        1 cer 4045            1 cer 202
Ohio                                       weekly           1 cer 2060            1 cer 412
                        TABLE   4 (cont.


                                           Ratio of staff   Ratio of volunteers to
                STATE                         to beds               beds
Oklahoma                                       er 2174

Ore on
                                        er 3215

Penns Ivania                                   er 3596

Rhode Island                                 er 10331

South Carolina                                er 5665

South Dakota                                  er 1409

Tennessee                                  1 er3912

Texas                                         er 3441

Utah                                          er 1062

Vermont                                        er 854

Vir inia                                      er 3596

Washin ton                                    er 6678

West Vir inia                                 er 1500

Wisconsin                                     er 6685

W omin                                         er 214

                                 APPENDIX
                                            TABLE 5
                            Output Measures for Ombudsman Programs:
                         Complaint Resolution Criteria Reported Activitf

                                                Complaint Response Time
                 STATE                                                             % of complaints
                                          Ufe threatening    Non Ufe threatening
                                                                                   resolved Der vear


Alabama                                    3 - 5 days            3 - 5 days              83%
Alaska                                      24 hours             24 hours
               93%
Arizona                                   5 days max.           5 days max.              74%
Arkansas                                    48 hours
            2 - 3 days              87%
California                                  24 hours
            24 hours
               75%
Colorado                                    24 hours
            24 hours
               83%
Connecticut                                 24 hours              3 days                 96%
Delaware                                    24 hours             24 hours
               67%
District of Columbia                        24 hours
            24 hours
               90%
Florida                                     24 hours
             5 days                 50%
Georaia                                     24 hours
             1 week                 75%
Hawaii                                   24 - 48 hours            2 days                 72%
Idaho                                       24 hours
             5 days                 72%
Iowa                                       24 hours
              priority              35%
Illinois                                   48 hours
              2 days                 81%
Indiana                                    24 hours
              2 weeks                69%
Kansas                                   24 - 48 hours
           2 days                25%
Kentucky                                   24 hours
             24 hours                65%
Louisiana                                  48 hours
              2 days                 80%
Maine                                      24 hours
              1 week                77%
Marvland                                 24 - 48 hours
           2 days                68%
Massachusetts                              24 hours
             24 hours
              95%
Michiaan                                   24 hours
             24 hours
              77%
Minnesota                                    5 days
              5 days                77%
Mississippi                                 24 hours
            24 hours
              60%
Missouri                                 24 - 48 hours
           2 days                90%
Montana                                     24 hours
             1 week                100%
Nebraska                                    24 hours
             1 0 days              85%
Nevada                                      24 hours
             3 days                80%
New Hampshire                               24 hours
             months                43%
New Jersey                                  24 hours
             3 days                D/K*
New Mexico                                  24 hours
            24 hours
              75%
New York                                    48 hours
             2 days                92%
North Carolina                              24 hours
             1 week                60%
North Dakota                                24 hours
             4 days                80%
                                         TABLE 5 (cont.

                                                 Complaint Response Time
                 STATE                                                              % of complaints
                                           Ufe threatening    Non Ufe threatening
                                                                                    resolved per year
 Ohio                                         24 hours              1 week               67%
 Oklahoma                                    3 - 5 davs           3 - 5 davs             80%
 Oreaon                                       24 hours            24 hours               75%
 Pennsylvania                                 24 hours              5 davs               40%
 Rhode Island                                 24 hours             24 hours              85%
 South Carolina                               24 hours             24 hours              60%
 South Dakota                                 24 hours              3 davs               100%
 Tennessee                                     3 davs               3 davs               70%
 Texas                                        24 hours              3 davs               92%
 Utah                                          3 davs              3 weeks               98%
 Vermont                                      24 hours              3 davs               70%
 Virainia                                     48 hours            48 hours               84%
 Washinaton                                    1 week               1 week               80%
 West Virainia                                24 hours            24 hours               79%
 Wisconsin                                    24 hours              4 davs               76%
 Wyoming                                      24 hours              3 davs               72%


* New Jersey does not keep statistics on the percent of complaints resolved in a year. In order
to include this statistic in the index we projected an estimated value based on their other reported
activities.
                 APPENDIX 

Number of Votes Received by Ombudsmen Programs
                 as Model States

STATE                                   NUMBER   OF VOTES

Ohio
Michigan
Massachusetts
California
Colorado
Minnesota
Distrct of Columbia
Florida
Georgia
Oklahoma
New Jersey
Marland
Louisiana
Wisconsin
Maine
Idaho
Kentucky
Oregon
Texas
Virginia
Delawar
Ilinois
New Hampshire
New Mexico
New York
Nort Dakota

South Carolina
Tennessee
Vermont
Washington

The remaining    22State programs did not receive any votes
from their fellow ombudsmen.




                              r. - 1

